2311 Douglas Street

COCKLE

Le g al Brie fs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No, 19-251
AMERICANS FOR PROSPERITY FOUNDATION,
PETITIONER,
Vv.
XAVIER BECERRA, ATTORNEY GENERAL OF CALIFORNIA,
RESPONDENT.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 24th day of September, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF THE LIBERTY JUSTICE CENTER AS AMICUS
CURIAE IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been served by
Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
Brian K. Kelsey
Counsel of Record
Jeffrey M. Schwab
Daniel R. Suhr
LIBERTY JUSTICE CENTER.
190 LaSalle St., Ste. 1500
Chicago, IL 60603
(312) 263-7668
bkelsey@libertyjusticecenter.org

Subscribed and sworn to before me this 24th day of September, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

aor  E billie Qudeaw-h, Ghby

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38661
 

Attorneys for Petitioner

Derek L. Shaffer Quinn Emanuel Urquhart & Sullivan, LLP (202) 538-8000
Counsel of Record 1300 | Street NW, Suite 900
Washington, DC 20005

derekshaffer@quinnemanuel.com

Party name: Americans for Prosperity Foundation

 

 

Attorneys for Respondent

Aimee Athena Feinberg California Department of Justice (916) 210-6003
Counsel of Record 1300 | Street
Sacramento, CA 95814

Aimee.Feinberg@doj.ca.gov

Party name: Xavier Becerra, in his official capacity as the Attorney General of California

 

 
